NO.
IN THE
SUPREME COURT OF THE UNITED STATES
_____________________
ALEXANDER P. BEBRIS,

Petitioner,
V.

UNITED STATES OF AMERICA,

Respondent.
________________________________
PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
________________________________

PETITION FOR WRIT OF CERTIORARI
________________________________
JASON D. LUCZAK

(COUNSEL OF RECORD)
GIMBEL, REILLY, GUERIN & BROWN LLP
TWO PLAZA EAST, SUITE 1170
330 EAST KILBOURN AVENUE
MILWAUKEE, WISCONSIN 53202
TELEPHONE: 414-271-1440

QUESTION PRESENTED FOR REVIEW

Does
Confrontation

the

Sixth

Clause

Amendment

apply

to

all

and

pretrial

evidentiary hearings implicating the credibility of
a witness?

ii
LIST OF PARTIES
The parties to this action include the
petitioner Alexander P. Bebris and the United States
of

America,

the

respondent.

Facebook,

Inc.

intervened in the district court case by filing a motion
to quash the subpoena and filed an amicus curiae
brief at the United States Court of Appeals for the
Seventh Circuit.

iii
TABLE OF CONTENTS
PAGE
QUESTIONS PRESENTED FOR REVIEW ........................... i
LIST OF PARTIES .......................................................... ii
TABLE OF CONTENTS .................................................. iii
TABLE OF AUTHORITIES.............................................. iv
OPINIONS BELOW ......................................................... 2
JURISDICTIONAL GROUNDS .......................................... 2
CONSTITUTIONAL AND STATUTORY PROVISIONS .......... 3
STATEMENT OF THE CASE ........................................... 4
REASONS FOR GRANTING THE WRIT .......................... 37
APPENDIX............................................................... (A-0)
Opinion of U.S. Court of Appeals (7th Circuit)
decided July 15, 2021 ...................................... (A-1)
Decision and Order of the U.S. District Court
(Eastern District) decided March 9, 2020 .... (A-37)

iv
TABLE OF AUTHORITIES
CASES
PAGE

Crawford v. Washington, 541 U.S. 36 (2004) .... 40,41
Gannett Co, Inc. v. DePasquale, 443 U.S. 368, 437

(1979) ................................................................. 42, 45

Gouled v. U.S., 255 U.S. 298, 313 (1921) ................ 44
Jones v. U.S., 362 U.S. 257, 264 (1960) .................. 44
Linder v. U.S., 937 F.3d 1087, 1090 (7th Cir. 2019) 28
McCray v. Illinois, 386 U.S. 300, 305 (1967) .... 41, 42
Pennsylvania v. Ritchie, 480 W.S. 39, 52 (1987)….33,
38

United States v. Ackerman, 831 F.3d 1292 (10th Cir.

2016) ........................................................................ 32

United States v. Nixon, 418 U.S. 683, 702, 94 S. Ct.

3090, 3104 (1974) .................................................... 43

United States v. Ringland, 966 F.3d 731 (8th Cir.

2020) ........................................................................ 36

United States v. Salvucci, 448 U.S. 83 (1980) ........ 44
United States v. Villegas, 495 F.3d 761 (7th Cir. 2007)
................................................................................... 29

v

Warden Md. Penitentiary v. Hayden, 387 U.S. 294
(1967) ....................................................................... 44

Wong Sun v. U.S., 371 U.S. 471 (1963) ................... 10
CONSTITUTION, STATUTES AND RULES
U.S. CONST. amend. iv ........................... 3,5,9,29,30,33
U.S. CONST. amend. v .............................................. 3,5
U.S. CONST. amend. vi .......... 3-6,28,33,37,39,41-42,45
18 U.S.C. §2252(A)(4)(B) ............................................. 2
18 U.S.C. §2252A(A)(2)(A) .......................................... 4
18 U.S.C. §2258A(c) ................................................. 15
18 U.S.C. §2258A(g)(3) ............................................ 15
18 U.S.C. §2258B(a) ................................................ 19
18 U.S.C. §2258C(a) ................................................ 15
42 U.S.C. §5773(b) ................................................... 15
FEDERAL RULE OF CRIMINAL PROCEDURE 17 ............ 11

vi
OTHER AUTHORITIES
Wayne R. LaFave, CRIMINAL PROCEDURE
§10.1(a) (4th ed. 2016) .............................................. 43
Protecting Kids Online: Testimony from a Facebook
Whistleblower, October 5, 2021,
https://www.commerce.senate.gov/2021/10/protecting
%20kids%20online:%20testimony%20from%20a%20f
acebook%20whistleblower, accessed October 11,
2021; Here are 4 key points from the Facebook
whistleblower’s testimony on Capitol Hill, National
Public Radio, October 5, 2021,
https://www.npr.org/2021/10/05/1043377310/facebook
-whistleblower-frances-haugen-congress, accessed
October 11, 2021 .................................................. 47-48

NO.
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021
_____________________
ALEXANDER P. BEBRIS,

Petitioner,
V.

UNITED STATES OF AMERICA,

Respondent.

____________________
PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
____________________
PETITION FOR WRIT OF CERTIORARI
____________________
Petitioner

Alexander

P.

Bebris

(Bebris)

respectfully prays that a writ of certiorari be issued
to review the decision of the United States Court of
Appeals for the Seventh Circuit.

2
OPINIONS BELOW
The opinion of the United States Court of
Appeals for the Seventh Circuit is reported at United

States v. Alexander P. Bebris, 4 F.4th 551 (7th Cir.
2021).

The decision of the United States District

Court for the Eastern District of Wisconsin’s decision
to deny the defendant’s motion to suppress evidence,
and to grant Facebook, Inc.’s motion to quash is
unreported and reprinted in the appendix. (A-37 to
A-57).
JURISDICTIONAL GROUNDS
This petition arises from the Seventh Circuit’s
July 15, 2021, opinion affirming the district court’s
conviction

of

Bebris

for

possession

of

child

pornography, in violation of 18 U.S.C. §2252(a)(4)(B).

3
CONSTITUTIONAL AND STATUTORY PROVISIONS
The instant case involves the application of the
Fourth, Fifth and Sixth Amendments of the U.S.
Constitution and their interplay in a modern society
where usage of social media programs and their
messaging services has become a part of the daily
lives of nearly all Americans.
The Fourth Amendment provides as follows:
The right of the people to be secure in their
persons, houses, papers, and effects,
against
unreasonable
searches
and
seizures, shall not be violated, and no
Warrants shall issue, but upon probable
cause, supported by Oath or affirmation,
and particularly describing the place to be
searched, and the persons or things to be
seized.
The Fifth Amendment provides as follows:
No person shall be held to answer for a
capital, or otherwise infamous crime,
unless on a presentment or indictment of
a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia,
when in actual service in time of War or
public danger; nor shall any person be

4
subject for the same offence to be twice put
in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a
witness against himself, nor be deprived of
life, liberty, or property, without due
process of law; nor shall private property
be taken for public use, without just
compensation.
The Sixth Amendment provides as follows:
In all criminal prosecutions, the accused
shall enjoy the right to a speedy and public
trial, by an impartial jury of the State and
district wherein the crime shall have been
committed, which district shall have been
previously ascertained by law, and to be
informed of the nature and cause of the
accusation; to be confronted with the
witnesses against him; to have compulsory
process for obtaining witnesses in his
favor, and to have the Assistance of
Counsel for his defence.
STATEMENT OF THE CASE
On August 4, 2020, Mr. Bebris entered a
conditional guilty plea to a single count of distribution
of

child

pornography,

contrary

to

18

U.S.C.

§2252A(a)(2)(A). (R.72). The parties agreed as part of
the resolution that Mr. Bebris would retain the right

5
to appeal the district court’s adverse rulings on his
pretrial motion to suppress.
On November 17, 2010, the matter continued
to sentencing, at which time Mr. Bebris was ordered
to serve 60 months initial confinement, followed by six
years of supervised release. (R.72;82).
Following his conviction and pursuant to the
conditional plea, Mr. Bebris appealed his conviction to
the Seventh Circuit. On appeal, he argued that the
district court erred by denying his motion to suppress
all evidence obtained from the illegal search of his
private, user-to-user messages sent through the
program Facebook Messenger. This search was
conducted absent a warrant and in violation of the
Fourth, Fifth and Sixth Amendments of the U.S.
Constitution. Encompassed in his challenge of the
district court’s refusal to suppress was a secondary
challenge to the district court’s conclusion that as a

6
general matter, the Sixth Amendment does not apply
to pretrial hearings, and the court’s resulting order
quashing the subpoena of Facebook, Inc., which
denied Mr. Bebris the right to confront the corporation
who conducted the search of his private messages.
(R.86).

The Arrest and Charging of Alexander P. Bebris
On September 6, 2018, at 13:25:46 UTC,
Facebook,

Inc.

(Facebook)

submitted

CyberTip

39932621 to the National Center of Missing and
Exploited

Children

(NCMEC).

(R.48:27).

That

CyberTip detailed that through the employment of
Microsoft

Corporation’s

PhotoDNA

program,

Facebook identified two images of suspected child
pornography associated with the program user
identified as “Alexander Bebris.” (R.48:28). Three
days later, Facebook submitted a second report to
NCMEC, CyberTip 40017882, detailing one image of

7
suspected

child

pornography

associated

with

Facebook user identified as “Alexander Paul.” (Id.:40).
According to both CyberTip reports, the images in
question were sent through the Facebook Messenger
user-to-user messaging platform and the intended
recipient of both sets of images was a user identified
as “Carly Macks.” (Id.:27-40).
In December 2018, NCMEC submitted a
referral containing the CyberTip reports to the
Internet Crimes Against Children Task Force with
the Wisconsin Department of Justice. (Id.:38).
Investigators reviewed the information collected by
and submitted from Facebook and NCMEC, including
the images provided in the CyberTips, and provided
this information to investigators at the Winnebago
County Sheriff’s Office. (R.30:2). On December 7,
2018, based on the information provided by NCMEC,
investigators obtained an administrative subpoena to

8
obtain all account information related to Facebook
usernames “Alexander Bebris”, “Alexander Paul” and
“Carly Macks.” (Id.). Using the data received from the
administrative subpoena, investigators determined
the

suspected

users

“Alexander

Bebris”

and

“Alexander Paul” to be one in the same, and
ultimately the defendant-appellant in this case,
Alexander P. Bebris. (R.30:2-3).
On December 17, 2018, using the information
obtained through Facebook’s search and NCMEC’s
referral, investigators applied for a warrant to search
Mr. Bebris’ home and personal effects. (Id.). Police
interviewed Mr. Bebris on scene and the search
yielded

several

investigation,

items

of

significance

including

a

Dell

to

computer

the
that

allegedly contained numerous files of interest to the
government. (Id.). Bebris ultimately was arrested and
indicted with one count of distribution of child

9
pornography and one count of possession of child
pornography in Case No. 19-CR-02, contrary to
sections 18 U.S.C. 2252A(a)(5)(B) and 18 U.S.C.
2252A(a)(2)(A). (Id.).

The Motion to Suppress & the Issuance of Subpoenas
On August 22, 2019, Bebris filed a motion to
suppress all physical evidence and statements derived
from the illegal search of his private user-to-user
communications

sent

via

Facebook

Messenger,

alleging that Facebook’s actions were that of a
government agent, and as a result, the Fourth
Amendment mandated that a warrant be obtained
before his private messages were searched and their
contents seized.
At issue in the motion were three questions: (1)
whether the National Center for Missing & Exploited
Children (NCMEC) is a government entity or in the
alternative, an agent of the government; (2) whether

10
Facebook, Inc. acted as an agent of the government or
at the behest of the federal government; and (3)
whether the search of Bebris’s private user-to-user
communications on Facebook Messenger constituted
a Fourth Amendment search. (R.28;35). If the Fourth
Amendment

protected

these

messages,

Bebris

asserted that all evidence obtained as a result of the
illegal search of his communications must be
suppressed under the fruits of the poisonous tree
doctrine pursuant to Wong Sun v. U.S., 371 U.S. 471
(1963). (Id.).
Following receipt of the motion and upon the
request of Bebris, the district court issued subpoenas
for NCMEC, Facebook, Inc., and Microsoft, compelling
their appearance and testimony at an evidentiary
motion hearing as scheduled by the court. (R.34).

11

Microsoft’s Response to the Subpoena
In mid-October 2019, Bebris served Microsoft
Corporation,

NCMEC,

and

Facebook,

Inc.

(“Facebook”) with Federal Rule of Criminal Procedure
17

subpoenas

issued

by

the

district

court. (R.40;41). Soon after, representatives from
Microsoft contacted Bebris’s counsel regarding a
proposal to submit a written stipulation in lieu of
providing live testimony. The parties, together with
the corporation, agreed upon a set of facts set forth in
a written stipulation to supplant live testimony of
Microsoft at the evidentiary hearing. (R.49-1:¶4).

NCMEC’s Response to the Subpoena
After receiving the district court subpoena,
representatives from NCMEC advised that they
intended

to

make

an

executive

available

for

testimony. It was agreed upon that this would be done
remotely via video. (R.46).

12
NCMEC agreed to participate in the hearing
and was represented remotely by John Shehan, Vice
President of the Exploited Child Division at NCMEC.
During his testimony, Shehan focused primarily on
four main topics: (1) the oversight and funding
received by NCMEC from the federal government; (2)
the organization’s use of PhotoDNA and NCMEC’s
Hash-Value Database; (3) NCMEC’s CyberTipline
System; and (4) NCMEC’s partnership with Facebook
in its investigatory work. (R.48).
Shehan testified in detail about NCMEC’s close
relationship
government.

with

Congress

NCMEC,

he

and

the

asserted,

federal
receives

approximately seventy-five percent of its funding from
federal grants. (R.48:49:10-13). He acknowledged that
at any time, Congress can pull its funding from
NCMEC. (R.48:61:21-24). As a natural consequence of
providing large amounts of funding to NCMEC,

13
Congress both monitors and oversees NCMEC’s
activities. (Id.)
For example, Mr. Shehan testified that in 2011,
the

Government

Accountability

Office

(GAO)

authored a report to Congress on NCMEC, which
included the GAO conducting “a review of the
operations.” (R.48:58:15-20). In the report, it made
various recommendations to NCMEC, including how
to better assist law enforcement in initiating action,
“such

as

obtaining

investigation,

a

subpoena,

or executing

a

initiating

search

an

warrant.”

(R.48:61:2-8;Ex. C at 25). Additionally, in April 2016,
the Department of Justice (“DOJ”) wrote a report
entitled “The National Strategy for Child Exploitation
Prevention and Interdiction.” (R.48:62:19-22;Ex. D).
NCMEC participated in creating the report to the
extent that they provided data related to the
CyberTipline and the Child Victim Identification

14
Program. (R.48:63:5-24). This report summarizes
NCMEC in the following way:
The National Center for Missing &
Exploited Children (NCMEC) is a
private,
non-profit
organization
designated by Congress to serve as the
national clearinghouse on issues related
to missing and exploited children and

works in cooperation with the DOJ and
other federal, state, and local law
enforcement, education and social
service
public.

agencies,

families,

and

the

(R.48:Ex. D at 68)
The GAO report also detailed an initiative
entitled the Child Victim Identification Program,
which helps NCMEC “track child pornography images
of children previously identified by law enforcement.”
(Id. at 69).

The report goes on to state that the

program’s “mission is to assist federal and state law
enforcement agencies in their efforts to identify,
located and rescues child victims in sexually
exploitive situations.” (Id.).

15
Beyond the funding and oversight of NCMEC,
Mr. Shehan asserted that Congress has given
NCMEC power and responsibility under federal law;
powers that only law enforcement have. (R.48:49:57); see also, e.g., 42 U.S.C. §5773(b). Congress has
authorized NCMEC by federal statute to participate
in activities which ordinary citizens may not.
(R.48:48:22-49:2). For instance, NCMEC is allowed by
law to both possess and distribute child pornography.
(R.48:49:14-18); see also 18 U.S.C. §2258A(g)(3), 18
U.S.C.

§2258C(a).

Additionally,

Congress

has

delineated numerous duties and responsibilities of
NCMEC, such as NCMEC’s responsibility to forward
the

CyberTipline

agencies.

Reports

(R.48:49:19-23);

to

law

see

also

enforcement
18

U.S.C.

§2258A(c), (g)(3).
Shehan testified that the software program,
PhotoDNA, was developed by Microsoft in conjunction

16
with Dartmouth College. The software creates an
independent hash value for each digital image
analyzed with the program. (R.48:17:7-9; 20:1-8;
R.43:¶3). A hash value is a unique identifier for a
digital image. (R.43:¶¶6-7). NCMEC and various
Electronic Service Providers (ESPs) use PhotoDNA to
identify potential images of child pornography and
deliver the contraband to the government. (R.48:20:18; R.43:¶8).
From the development of PhotoDNA up until
approximately three years ago, Microsoft allowed
NCMEC to sublicense the program to any entity for
free, a process that permitted NCMEC to provide
ESPs like Facebook the program without any cost to
the provider. (R.48:17:22-18:12). Microsoft has now
given its sublicense authority over to a different

17
group, the Technology Coalition1, an organization
whose members are various ESPs, including Facebook
and Microsoft. (R.48:47:10-12, 22-25).
Mr. Shehan continued, explain that NCMEC,
as authorized by Congress, stores all hash values of
suspected or known contraband in its automated
Hash Value Database2, the nation’s clearinghouse of
child pornography. (R.48:21:1-3; 67:10-12). This

While NCMEC is not a “member” of the Technology Coalition,
the two entities are not mutually exclusive. The Technology
Coalition hosts an annual conference which NCMEC attends
and in which it is an active participant. (R.48:70:17-21).
NCMEC also collaborates with the Technology Coalition, as it
updates the group on its own investigative activities and use of
the PhotoDNA software, including trends and the CyberTipline.
(Id.:48:3-9). Mr. Shehan testified that NCMEC “certainly”
partners and collaborates with the Technology Coalition
whenever it can. (Id.:48:14-16).
1

Mr. Shehan testified that about fifty companies, including
Facebook, have access to NCMEC’s hash sharing platform
(Id.:23:2-3), but that a handful of private databases also exist
(Id.:73:23-25). He stated that NCMEC has no way of knowing
whether CyberTipline Reports from ESPs are based on images
found using NCMEC’s hash sharing platform or a separate
private database. (Id.:74:1-4). What program was used to
identify the suspected images in this case by Facebook is a fact
that is unknown to NCMEC, one that only a representative of
Facebook could properly attest to.
2

18
database contains “every single file from every report
[NCMEC] ever received.” (R.48:21:10-12). Since its
inception, NCMEC has received over sixty million
CyberTipline3 reports. (R.48:38:6).
Shehan also testified that to more effectively
investigate

potential

possession

of

contraband,

NCMEC provides ESPs with access to its Hash Value
Database. (R.48:21:21-23). Not only can ESPs access
the database and share hash values amongst
themselves, NCMEC proactively provides ESPs the
hash value or image fingerprint of those images it
finds “egregious” and thus are of particular interest to
it and law enforcement. (Id.:21:13-16). This is done so
that a more targeted, specific search of ESP user data
can be conducted. (Id.).

Since its implementation in 1998, NCMEC’s CyberTipline, has
grown exponentially. (Id.:15:19-16:23). In 2018 alone, NCMEC
had received and processed over eighteen million CyberTipline
Reports. (Id.:16:22-23).
3

19
Mr.

Shehan

explain

that

after

alleged

contraband is identified by an ESP, federal law
requires it be reported to NCMEC through its
CyberTipline reporting system, as set forth in 18
U.S.C. §2258B(a). Once a CyberTip is received from
an ESP, NCMEC makes its own independent
determination of whether the images are child
pornography and thus, its possession prohibited. Id.
Following that determination, NCMEC determines to
which law enforcement agency the report must be
sent. (R.48:29:15, 35:20-38:17, 66:7-19).
Shehan testified that a CyberTipline report
consists of four sections, labeled A through D.
(Id.:29:13-15; see also R.48:Ex.A, B). Section A is filled
out by the reporting ESP, and there, an ESP must
disclose the name/identity of the tip submitter and
how the point of contact can be reached by law
enforcement for follow up; the incident type and time

20
it was identified; the URL; known information on the
user being reported; any additional information the
ESP would like to include and information regarding
the uploaded suspected contraband. (R.48:Ex.A).
Section A also asks: “Did the Reporting ESP
view the entire contents of the uploaded file?” In both
CyberTipline Reports associated with this case,
Facebook answered “yes.” (Id.:Ex.A, B.). Of significant
importance to the issue here, Mr. Shehan testified
that answering “yes” to this inquiry does not mean
that the ESP viewed the image at the time the report
was created, leaving for the possibility that it was
viewed sometime later and at the behest of another
person

or

body. (Id.:46:11-13).

Mr. Shehan

also

testified to the importance of ESPs responding “yes”
to the question:
8

[ATTY. PROCTOR] . . . you mentioned if the
answer

21
9
10
11
12

provided by the provider is “no,” the NCMEC
could not look at
the file that was uploaded as part of the
CyberTipline; is that
correct?

16

[SHEHAN ] A. Correct. There’s actually a lock
icon that goes over the
file. It cannot be viewed by the [NCMEC] staff
member. And the same
applies if they do not answer. So if they do not
say “yes” and
gets “information not provided,” it’s also
locked and the staff
member cannot view that file.

17

Q. Why is it locked?

18

A. Well, it was after a few previous court cases
that we felt
it was prudent to provide better clarity into
these reports as
to who is viewing, who is not viewing, and also
respect what
some of those decisions had been in regards to
what files the
NCMEC could and should not view.”

13
14
15

19
20
21
22

(Id.:33:8-22).
Mr. Shehan asserted that once NCMEC
receives a tip, it reviews the report and decides
whether to send the report to a law enforcement

22
agency. (Id.:66:13-16). If NCMEC turns over the
report to a law enforcement agency, it does so through
a virtual private network (“VPN”). (Id.:50:2-7; 57:2025). The agency can then log in through a VPN to view
the CyberTipline Reports. (R.48:57:14-19; 50:2-7;
57:20-25).

Because

of

the

large

volume

of

CyberTipline Reports passed on to various law
enforcement agencies, NCMEC sends each agency a
daily summary of all the reports within the agency’s
jurisdiction, making it easier for the law enforcement
agency to track their submissions for the purposes of
investigating the alleged offender, demonstrating how
NCMEC and law enforcement work together to
further these prosecutions. (R.48:57:14-19).

Facebook’s Response to the Subpoena
In contrast to Microsoft and NCMEC’s response
to the subpoenas, Facebook neither agreed to testify,
nor did it engage with counsel to develop a stipulated

23
set of facts that could be submitted for the court’s
review in lieu of live testimony.
Instead, representatives of Facebook did not
contact Bebris’s counsel until shortly before the
hearing, and at that time, they requested permission
from Bebris to submit a declaration of its position in
lieu of live testimony and confrontation. (R.491:¶4). Defense counsel, in an effort to accommodate
the company and preserve its resources, notified
Facebook that it would accept a declaration in lieu of
its appearance, but only if such a declaration
answered all questions Bebris believed to be relevant
and necessary to a full and proper determination of
the merits of the motion. (Id.:¶¶4, 5, Ex. A). To assist
in facilitating Facebook’s request, Bebris promptly
provided a list of topics and questions relevant to the
motion that it sought answered in any declaration if

24
it were to take the place of live testimony and
confrontation. (Id.).
On November 27, 2019, less than a week before
the hearing, Facebook submitted a two-and-a-halfpage declaration that largely ignored the topics
presented and questions asked by Mr. Bebris. (R.41).
Accompanying the declaration was a motion from
Facebook requesting to quash the court ordered
subpoena,

asserting

that

the

subpoena

was

unreasonable and oppressive, and that its testimony
was not relevant or necessary to the issues at hand.
(R.40).
The newly filed declaration and motion to
quash was addressed at the outset of the December 3,
2019 evidentiary hearing. (R.48:4-8). The court and
parties agreed to set Facebook’s motion for briefing
with the understanding that the evidentiary portion
of the motion hearing would remain open until the

25
court decided whether the corporation could be
compelled by Bebris to testify. (R.48:6).
The

declaration

submitted

by

Facebook

contained very little information and some claims that
were directly undermined by the testimony of John
Shehan. For example, despite Facebook’s declaration
that claimed no partnership existed or currently
exists between Facebook and NCMEC, Mr. Shehan’s
testimony painted a very different picture. (R.41). He
described a hand-in-hand working relationship,
including trainings, support, and additional projects.
(R.48:42-43).
Further, Facebook explicitly declared that the
corporation “does not receive training from NCMEC
regarding the use or operation of the PhotoDNA
software or its processes for reporting to the
CyberTipline.” (R.41:¶4). However, Shehan testified

26
NCMEC provides training4 on the CyberTipline to all
reporting ESPs, including Facebook. (R.48:25:1-5)
Shehan estimated that NCMEC communicates
with Facebook regarding the CyberTipline “at least
monthly.” (R.48:42:4-6). He stressed that he “would
think that [NCMEC] do[es] spend quite a bit of time
educating

[Facebook]

on

reporting

into

the

CyberTipline.” (Id.:45:1-3). His testimony also shed
light on formal trainings NCMEC provides to
Facebook, with the most recent being just six months
prior to his testimony. (Id.:43:1-7). For this training,
NCMEC traveled directly to Facebook’s facilities to
educate the company’s employees. (Id.).
Not only does NCMEC provide numerous
trainings to Facebook, but Facebook provides both in-

“Sure. We certainly provide training. Especially when a
company first begins to report into the CyberTipline, we want
to make sure they understand what the fields are, what it is
that they think that they are reporting actually came through
in the submission process.” (R.48:25:1-5).
4

27
kind and financial support to NCMEC. (Id.:24:5-8) Mr.
Shehan testified that Facebook “provide[s] in-kind
and financial support to the [NCMEC] as well. So in
many ways they are, you know, a partner to our
organization and they help us to better fulfill our
mission.” (Id.).
Finally,

Mr.

Shehan

testified

that

the

relationship between NCMEC and Facebook is so
close that they are in the process of developing a new
project together related to the Amber Alert Program
and how to best disseminate information on missing
children through Facebook’s numerous platforms.
(Id.:23:18-24:4).
As a result of Mr. Shehan’s detailed testimony,
it became clear to Mr. Bebris that Facebook’s written
declaration was lacking and inconsistent with the
facts

elicited

at

the

evidentiary

hearing

and

28
insufficient to stand in the place of live testimony and
confrontation.

The Written Decision Denying Suppression
a. The District Court Quashes Facebook’s
Subpoena
As a general matter, the district court held that
the Sixth Amendment right to compulsory process is
“a trial right” and “does not apply to pretrial
proceedings,” citing Linder v. U.S., 937 F.3d 1087,
1090 (7th Cir. 2019). (R.60:7). The district court
continued and found that the testimony of Facebook
was not needed to determine the level of cooperation
between NCMEC, the federal government and
Facebook

because

as

a

general

matter,

such

cooperation “would not transform Facebook into a
government agent or instrumentality.” (R.60:5-8).

29

b. The District Court Holds that Mr. Bebris
Has No Privacy Interest in his Facebook
Messages
Citing U.S. v. Villegas, 495 F.3d 761 (7th Cir.
2007), the district court held that when determining
whether one has a privacy interest protected by the
Fourth Amendment, it must consider whether the
individual had “an actual subjective expectation of
privacy and that the expectation is one that society is
prepared to recognize.” (R.60:2; App.109). In its
analysis, the court looked to Facebook’s declaration
and its reference to its “Community Standards” policy
available publicly on a section of its website. (Id.:3;
App.110).
The court wrote, “Facebook has a corporate
policy that prohibits content that sexually exploits or
endangers

children”

and

that

when

Facebook

“become[s] aware of apparent child exploitation,” the
exploitation is reported to NCMEC as required by

30
applicable law. (Id.). “In the face of these disclosures,”
the court wrote, “any expectation of privacy Bebris
had with respect to child pornography uploaded via
his Facebook Messenger account would be objectively
unreasonable.” (Id.).
Alternatively, the district court concluded that
even

if

Bebris

had

an

objectively

reasonable

expectation of privacy in his user-to-user Facebook
Messenger communications, “because Facebook is not
a government agent,” the Fourth Amendment is not
implicated, and the search was a private one
permitted under the law. (R.60:5-6; App.112-13). The
court found that “the government neither knew or nor
acquiesced in Facebook’s monitoring of Bebris’
emails.”

(R.60:6;

declaration,

the

App.113).
court

Relying

accepted

that

upon

the

Facebook

monitored the content of its users’ private messages
because “[n]o sane person, let alone a business that

31
values its image and reputation, wants to be publicly
associated with the sexual exploitation of children.”
(Id.).

c. The District Court Holds that Facebook is
not an Agent of the Government
The court held that even if NCMEC is a
government entity or acting as an agent of the
government, the court relied upon the company’s
declaration and opined that Facebook’s search was a
private one and was not expanded upon by NCMEC,
as an individual had viewed the photograph before the
CyberTipline was sent. (R.60:8; App.115).
And, even if the company had not viewed the
image prior to submitting the report, the court found
that the use of the hash value program, PhotoDNA, is
so specific that a subsequent viewing of the image by
the government or its actors absent consent or a
warrant is not a “significant expansion of a search

32
previously conducted by a private party such that it
would constitute a separate search.” (Id.:9; App.116).

Appeal to the Seventh Circuit
Mr. Bebris appealed the adverse decision of the
district court to the Seventh Circuit of the U.S. Court
of Appeals. The appellate court considered each of
Bebris’s arguments and ultimately affirmed the
decision of the lower court denying suppression.
(R.97).
Before engaging in its analysis of the specific
facts presented by Bebris’s case, the Seventh Circuit
discussed two legal concepts that underly the
questions before it as posed by Mr. Bebris.
First, the Seventh Circuit discussed the
premise that NCMEC is a government entity. The
reviewing court accepted this concept for the sake of
this appeal, relying upon United States v. Ackerman,
831 F.3d 1292 (10th Cir. 2016). (R.97:11). Therefore,

33
for the purposes of review, the court operated under
the concept that if Mr. Bebris could establish that
Facebook, Inc. was operating as an agent of NCMEC
when it searched Bebris’s private user-to-user
messages, it “would serve as a basis for government
action implicating the Fourth Amendment.” ( Id.).
Next, the appellate court held that contrary to
Mr. Bebris’s position, case law coming out of the U.S.
Supreme Court, i.e. Pennsylvania v. Ritchie, 480 W.S.
39, 52 (1987) (plurality opinion), did not support the
contention that the Sixth Amendment’s Confrontation
Clause applied to pretrial litigation. (Id.). The
Seventh Circuit agreed that while “’the Supreme
Court has not yet clearly and decisively addressed
whether the right to confrontation applies when a
defendant has waged a challenge related to the
suppression of allegedly unconstitutionally obtained
evidence,” it declined the invitation to create such a

34
right without such guidance from the Supreme Court.
(Id.:12). The court of appeals opined that even though
confrontation is not a right that exists pretrial, a
defendant may still compel the testimony of a
necessary witness, but pursuant to the discretion of
the circuit court. (Id.:13).
Regarding the merits of the motion, the
appellate court found that the district court did not
abuse its discretion in quashing the subpoena
compelling Facebook, Inc. to provide testimony
regarding its activities. (Id.:16-17). First, the court
held that the pretrial proceeding implicated by Mr.
Bebris’s motion to suppress was not bound by the
rules of evidence and therefore, the court need not
honor the subpoena request from the outset. (Id.:1617).
Second, the court found that the areas of
testimony relevant to Mr. Bebris’s contention that

35
there was significant cooperation between NCMEC
and Facebook and that Facebook’s cooperation with
NCMEC

and

government

prosecutions

was

compulsory were largely addressed by the testimony
of John Shehan. (Id.). Therefore, the court held,
additional testimony would have been cumulative.
(Id.:17).
Third, regarding the company’s purpose and
objectives in monitoring the messages of its users like
it did in this case, the court of appeal disagreed with
Mr. Bebris’s claim that Facebook’s brief blanket
assertion that it had “an independent business
purpose” was insufficient. (Id.). The court of appeals
pointed to holdings in other circuits that arrived at
similar conclusions – that performing automatic scans
of electronic communication platforms does not make
a corporation “a government agent merely because it
had

a

mutual

interest

in

eradicating

child

36
pornography from its platform.” (Id.:18, citing United

States v. Ringland, 966 F.3d 731 (8th Cir. 2020)). That
the district court arrived at the same conclusion was
not an abuse of discretion. (Id.).
Applying these conclusions to the facts and
issues presented here, the Seventh Circuit held that
based upon those findings and the record presented on
appeal, “the district court’s factual findings, including
that Facebook did not act as government agent in this
case, were proper.” (Id.:19). Therefore, the district
court’s denial of the motion to suppress on this basis
was likewise proper5. (Id.).

Because the Seventh Circuit resolved the issue on this basis, it
did not reach additional questions posed by this factual scenario
and in the appellate briefs (such as whether Bebris had a
reasonable expectation of privacy in his Facebook messages and
whether the good-faith exception would be applicable if the court
were to find that Facebook is indeed a government agent).
(Id.:19)
5

37
REASONS FOR GRANTING THE WRIT
While

the

underlying

factual

scenario,

relationships involved and internet-based systems
implicated in this appeal present a uniquely
complicated and modern set of circumstances, the
question posed by this petition is simple – does the
Sixth Amendment Confrontation Clause have any
place in pretrial criminal litigation or has the age-old
foundational constitutional principle been relegated
to the sidelines by procedural rules meant to increase
efficiency in our federal courts?
Here, Mr. Bebris, a citizen of the United States
of America, contends that Facebook, Inc., in all its
power and reach, conducted an illegal and extensive
search of his private user-to-user messages as part of
its admittedly regular monitoring of its userbase’s
private activities. Facebook, Inc., with the assistance
of the district court, has been able to dodge the

38
question of why the company reviews its user’s
messages, the purpose of doing so and how the
company goes about this process.
In Mr. Bebris’s case, Facebook may not draw
the ire of the public because the allegation is of course
that he violated the law in his use of the private userto-user messaging platform. But this process of
reviewing private messages of users most definitely
does not begin and end with Mr. Bebris, and the
company’s practice of systematically invading its
user’s privacy is one that is seemingly being carried
out at the direction of the federal government.
Citing

the

language

of

this

body

in

Pennsylvania v. Ritchie, 480 W.S. 39, 52 (1987) (a
holding without majority agreement), the Seventh
Circuit and its counterparts throughout the country
have been denying individuals the ability to confront
entities

–

corporations,

non-profits,

and

law

39
enforcement – who are invading citizen’s private
spaces and reviewing their personal correspondence
on the premise that the right to confront one’s
accuser is reserved only for a trial.
The Sixth Amendment to the United States
Constitution reads:
In all criminal prosecutions, the accused
shall enjoy the right to a speedy and
public trial, by an impartial jury of the
State and district wherein the crime
shall have been committed, which
district shall have been previously
ascertained by law, and to be informed of
the nature and cause of the accusation;
to be confronted with the witnesses
against him; to have compulsory process
for obtaining witnesses in his favor, and
to have the Assistance of Counsel for his
defence.
U.S. Const. VI Amendment. Those words, “in all
criminal prosecutions,” signify that the right to
confrontation is one that applies to all constitutionally
afforded

proceedings

involved

in

a

criminal

prosecution. While this court has never made this the

40
law in a clear and decisive majority, its holdings in
other matters involving confrontation indicate that
the lower courts have got it wrong.
This

Washington,

court’s
541

decision
U.S.

36

in

Crawford

(2004),

and

v.
its

accompanying concurrence, set forth a detailed
historical assessment of the confrontation clause and
its importance in criminal jurisprudence. The opinion
concludes that “[w]here testimonial statements are at
issue, the only indicium of reliability sufficient to
satisfy constitutional demands is the one of the
Constitution

actually

prescribes:

confrontation.”

Crawford, 541 U.S. at 68-69. The Crawford Court
continued,

holding

that

“[d]ispensing

with

confrontation because testimony is obviously reliable
is akin to dispensing with jury trial because a
defendant is obviously guilty. This is not what the

41
sixth Amendment prescribes.” Id. at 62 (emphasis
added).
Even decades before Crawford and Ritchie, this
Court plainly assumed the Confrontation Clause
applied to a pretrial suppression hearing in McCray v.

Illinois, 386 U.S. 300, 305 (1967). There, the Court
was considering whether a defendant could compel
the identity of an informant through the crossexamination of a witness at a suppression hearing.
The Court held that the trial court’s refusal to permit
the line of questioning was not a violation of the
Confrontation Clause, specifically not because the

Clause did not apply at a suppression hearing, but
because it was not relevant to the question of
suppression based on the facts and circumstances of
the case and also because well-settled Illinois law
permitted police to withhold the identity of an

42
informant when the issue of guilt or innocence was not
implicated. McCray, 386 U.S. at 305.
Further, the lower courts’ misplaced reliance on

Ritchie ignores that suppression issues may be dealt
with in the midst of trial and therefore, Confrontation
would apply. If the right to confrontation applies
during such an inquiry at trial, but not at a nearly
identical pretrial hearing, is there not a denial of due
process for some but not others based only on the
procedural progression of his or her case?
Historically, a review of the applicable case
law6

suggests

that

the

suppression

of

See, e.g., Gannett Co, Inc. v. DePasquale, 443 U.S. 368, 437
(1979) (Blackmun, J., concurring in part and dissenting in part)
(“Indeed, the modern suppression hearing, unknown at common
law, is a type of objection to evidence such as took place at
common law…in open court…”);
6

See, e.g., Gannett Co, Inc., 443 U.S. at 395-96 (Burger, C.J.,

concurring). “When the Sixth Amendment was written, and for
more than a century after that, no one could have conceived
that the exclusionary rule and pretrial motions to suppress
evidence would be part of our criminal jurisprudence.”

43
unconstitutionally

obtained

evidence

historically

occurred amid the trial on the merits. It was only after
the passage of time and the crescendo of case volume
that practice of addressing suppression at trial has
become less common as courts favor pretrial litigation
of evidentiary issues rather than interrupting the
trial and delaying an already empaneled jury. The
practice of addressing suppression matters pretrial

See, e.g. 3 Wayne R. LaFave, CRIMINAL PROCEDURE §10.1(a) (4th
ed. 2016) (“At one time, it was not uncommon for states to treat
objections to illegally obtained evidence as subject to the usual
principle that the admissibility of evidence is determined when
it is tendered and not in advance of trial. A few jurisdictions
still follow [this approach]…”) (internal quotation marks
omitted).

See, e.g., U.S. v. Nixon, 418 U.S. 683, 702, 94 S. Ct. 3090, 3104
(1974) (“Enforcement of a pretrial subpoena duces tecum must
necessarily be committed to the sound discretion of the trial court
since the necessity for the subpoena most often turns upon a
determination of factual issues. Without a determination of
arbitrariness or that the trial court finding was without record
support, an appellate court will not ordinarily disturb a finding
that the applicant for a subpoena complied with Rule 17(c).”)
(internal quotation marks omitted) (emphasis added).

44
has now been codified in the Federal Rules of
Procedure, which states:
In the interest of normal procedural
orderliness, a motion to suppress, under
Rule 41(e), must be made prior to trial, if
the defendant then has knowledge of the
grounds on which to base the
motion…This provision…requiring the
motion to suppress to be made before
trial, is a crystallization of decisions of
this Court requiring that procedure, and
is designed to eliminate from the trial
disputes over police conduct not
immediately relevant to the question of
guilt.

Jones v. U.S., 362 U.S. 257, 264 (1960), overruled on
other grounds, U.S. v. Salvucci, 448 U.S. 83 (1980).
That the timeline of a suppression hearing has
changed over the years does not alter the rights
effected by the matter, as “[a] rule of practice must not
be allowed for any technical reason to prevail over a
constitutional right.” Gouled v. U.S., 255 U.S. 298, 313
(1921), abrogated on other grounds Warden Md.

Penitentiary v. Hayden, 387 U.S. 294 (1967). This

45
same line of thinking was employed in the holding
concluding that the Sixth Amendment public-trial
right applied to suppression hearings – that a
“temporal factor” does not control the constitutional
analysis. Gannett Co, Inc. v. DePasquale, 443 U.S.
368, 436-37 (1979) (Blackmun, J., concurring in part
and dissenting in part).
Acceptance of this case will allow this Court to
provide necessary guidance with a holding that
makes it clear – the Confrontation Clause applies to
all criminal evidentiary hearings when credibility of
a relevant witness is at issue. Certainly, the Framers
of the U.S. Constitution and our founding fathers did
not intend for a modern rule of criminal procedure to
strip away a defendant’s ability to confront witnesses
who can speak to the legality of a search of their
private

effects

and

personal

communications,

particularly when those witnesses are aligned with

46
the government or other dominating and powerful
forces operating in our nation. To give the judiciary
the power to act as the arbiter of truth in matters of
such importance without first requiring the court to
witness the testimony firsthand would be to
undermine one of the hallmarks of our adversarial
system.
If

this

court

were

to

hold

that

the

Confrontation Clause does not apply to pretrial
criminal proceedings, the impact of such a landmark
ruling would be destructive to our criminal justice
system at such a substantial level, it is difficult to put
into words. Law enforcement and its agents would be
able to interfere with the lives and monitor the daily
activities of individuals throughout our nation with
impunity and our citizenry denied any true venue or
procedure for recompense.

47
That the holdings in this case imply that
reliance upon the uncontested word of Facebook, Inc.
and other monoliths like it is an acceptable
substitute for live testimony and confrontation so
long as the trial court does not abuse its discretion in
doing so sets the stage for these massive corporate
entities and their government counterparts to take
advantage of the veil of secrecy that has been
bestowed upon them.
As the recent hearings held by our Congress
have shown, Facebook, Inc. is not the altruistic actor,
waging war against those who take advantage of
children, they held themselves out to be in the
declaration entered in this case. It appears, they are
in fact quite the opposite. Just last week, Facebook
whistleblower Frances Haugen said7 during her

Protecting Kids
Whistleblower,
7

Online: Testimony
October

from
5,

a

Facebook
2021,

48
October 5, 2021 testimony to the U.S. Senate
Subcommittee on Consumer Protection, Product
Safety, and Data Security: “It is clear that Facebook
prioritizes profit over the well-being of children and
all users.” And now, with courts throughout the
nation siding with Facebook, Inc. and the like and
finding

that

they

need

not

be

subjected

to

confrontation on questions such as this, individuals
are down one more tool in the seemingly neverending fight for privacy in their communications.
It is for those reasons that Mr. Bebris implores
this court to accept review of his case and to conclude
that the confrontation clause applies to all pretrial

https://www.commerce.senate.gov/2021/10/protecting%20kids%
20online:%20testimony%20from%20a%20facebook%20whistlebl
ower, accessed October 11, 2021; Here are 4 key points from the
Facebook whistleblower’s testimony on Capitol Hill, National
Public
Radio,
October
5,
2021,
https://www.npr.org/2021/10/05/1043377310/facebookwhistleblower-frances-haugen-congress, accessed October 11,
2021.

49

criminal evidentiary proceedings where a witness's
credibility is at issue
Dated this 12th day of October, 2021.
Respectfully submitted,

GIMBEL, REILLY, GUERIN & BROWN LLP

ND.

of

for D efe n d a n t -Ap p e I I a n t Petitioner, Alexander P. Bebris
Counsel

POST OFFICE ADDRESS:
Two Plaza East, Suite 1170
330 East Kilbourn Avenue
Milwaukee, Wisconsin 53202
Telephone: 4L4127 7'1440

NO.
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021
_____________________
ALEXANDER P. BEBRIS,

Petitioner,
V.

UNITED STATES OF AMERICA,

Respondent.

________________________________
PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
________________________________
APPENDIX TO PETITION FOR WRIT OF CERTIORARI
________________________________
JASON D. LUCZAK
(COUNSEL OF RECORD)
GIMBEL, REILLY, GUERIN & BROWN LLP
TWO PLAZA EAST, SUITE 1170
330 EAST KILBOURN AVENUE
MILWAUKEE, WISCONSIN 53202
TELEPHONE: 414-271-1440

TABLE OF CONTENTS OF APPENDIX
Opinion of U.S. Court of Appeals (7th Circuit)
decided July 15, 2021 ...................................... (A-1)
Decision and Order of the U.S. District Court
(Eastern District) decided on March 9, 2020 (A-37)

In the
United States Court of Appeals
For the Seventh Circuit
UNITED STATES of America, Plaintiff–Appellee,
v.
Alexander BEBRIS, Defendant–Appellant.
No. 20-3291.
Argued May 13 ,2021.
Decided July 15, 2021.
Appeal from the United States District Court for the
Eastern District of Wisconsin.
No. 19-cr-2 — William C. Griesbach, Judge.
Before SYKES, Chief Judge, and SCUDDER and
KIRSCH, Circuit Judges.
KIRSCH, Circuit Judge.
Alexander Bebris sent child pornography over
Facebook’s private user-to-user messaging system,
Facebook Messenger, in 2018. Bebris’s conduct was
initially discovered and reported by Facebook, which
licenses a “hashing” or (in overly simpliﬁed layman’s
terms) image- recognition technology developed by
Microsoft called PhotoDNA. PhotoDNA provides the
capability to scan images uploaded onto a company’s

A-2
platform and compares the “hash” (or essence) of a
photo with a database of known images of child
pornography.1 Thus, through that technology, three of
Bebris’s messages were ﬂagged by PhotoDNA.
Facebook employees reviewed the ﬂagged images and
reported them to the CyberTipline of the National
Center

for

Missing

and

Exploited

Children

(“NCMEC”), as required by 18 U.S.C. § 2258A(a).
NCMEC then reported the images to Wisconsin law
enforcement oﬃcials, who eventually obtained a
warrant and searched Bebris’s residence, where they
found

a

computer

containing

numerous

child

pornography ﬁles. Bebris was charged federally with
possessing and distributing child pornography.

The terms used in the record to describe the type of material
in the data- base, which is administered by the National Center
for Missing and Exploited Children, include “child exploitation
material,” “images depicting child sexual abuse,” and “child
pornography.” The distinction between these terms, if any, is
immaterial to the resolution of this appeal, and we will use the
term child pornography in the interest of consistency.
1

A-3
Bebris argued before the district court that the
evidence

against

him

should

be

suppressed,

speciﬁcally contending that Facebook took on the role
of a government agent (subject to Fourth Amendment
requirements) by monitoring its platform for child
pornography and reporting that content. On appeal,
Bebris reprises this argument but primarily contends
that he was deprived of the opportunity to prove that
Face- book acted as a government agent because the
district court denied his Federal Rule of Criminal
Procedure 17(a) subpoena seeking pretrial testimony
from a Facebook employee with knowledge of
Facebook’s use of PhotoDNA. The district court,
however, properly exercised its discretion in quashing
that subpoena, as it sought cumulative testimony to
material already in the record. The record included a
written declaration from Microsoft and Facebook and
live testimony from an executive at NCMEC, which

A-4
administers the federal reporting system. On the
merits, the district court did not err in its conclusion
that Facebook did not act as a government agent in
this case. Thus, we aﬃrm.
I
Bebris sent messages to a woman via Facebook
Messenger, a user-to-user private messaging service
that is part of Facebook. PhotoDNA, a program
developed by Microsoft and implemented in Facebook
Messenger, ﬂagged some of those messages, which
contained

images

that

matched

known

child

pornography. PhotoDNA is an “image-mapping”
technology that uses a mathematical algorithm to
create a unique “hash value” based on the digital
essence of a photo. The hash value of images uploaded
and sent via Facebook Messenger are automatically
compared to a database of the hash values of known
child pornography, which is compiled and maintained

A-5
by NCMEC. If the program returns a presumptive hit
for child pornography, Facebook employees review the
ﬂagged images and then send the images and certain
user in- formation to NCMEC as “CyberTipline
Reports,” or “CyberTips,” in accordance with 18 U.S.C.
§ 2258A.
In Bebris’s case, three images were ﬂagged as
suspected child pornography and forwarded to
NCMEC, which ultimately forwarded the information
to state law enforcement agencies in Wisconsin. The
Wisconsin authorities then subpoenaed internet data
and identiﬁed the IP address that up- loaded the
photos as belonging to Bebris. They obtained a state
search warrant and executed it at Bebris’s residence,
where they seized numerous electronic devices,
including a computer that contained numerous child
pornography ﬁles.

A-6
Bebris was subsequently charged in federal court
with possessing and distributing child pornography in
violation of 18 U.S.C. §§ 2252A(a)(2)(A) and (a)(5)(B).
He ﬁled a motion to suppress evidence, arguing that
Facebook (and NCMEC and law enforcement) violated
his Fourth Amendment rights by searching his
Facebook messages without a warrant. In support of
that theory, Bebris argued that Facebook assumed the
role of a government agent by monitoring for and
reporting suspected child pornography to NCMEC.
Bebris requested an evidentiary hearing and sought
to elicit testimony relating to Facebook’s cooperation
with

NCMEC

and

the

government.

Bebris

additionally sought to elicit testimony from Facebook
regarding whether he had an expectation of privacy
over his Facebook messages and the scope of
Facebook’s search of his messages. Bebris argued in
the alternative that even if Facebook did not act as a

A-7
government agent, law enforcement ipermissibly
expanded Facebook’s private search when it viewed
images not previously opened by Facebook.2
The district court set the matter for an evidentiary
hearing, and Bebris subpoenaed Microsoft, NCMEC,
and Facebook, seeking testimony from each pursuant
to Federal Rule of Criminal Procedure 17(a). Microsoft
agreed to set forth certain facts in a stipulation.
NCMEC agreed to make an executive available for the
hearing.
The Facebook subpoena, dated October 14, 2019,
re- quested testimony from the “Person Most
Knowledgeable of” three topics:
(1) Facebook’s use of PhotoDNA, “including but not
limited to Facebook’s agreement to sublicense the
software, Facebook’s policies and procedures in

Bebris has not pressed this argument on appeal, and it is thus
waived.
2

A-8
utilizing the software, information stored by Facebook
which was discovered by use of the software, and
Facebook’s policies and procedures in reporting any
content discovered by the software,”
(2) “ongoing PhotoDNA training offered by Facebook and/or an outside entity,” and
(3) “cooperation” among Facebook, Microsoft, or
NCMEC.
R. 41, Ex. 2.
Following the receipt of the subpoena, Bebris’s
attorney and Facebook’s attorneys attempted to agree
on facts Facebook would stipulate to, but no
agreement was reached. On November 27, 2019,
Facebook ﬁled a declaration from its Project Manager
for Safety on the Community Operations team,
Michael Francis Xavier Gillin, II. Facebook also ﬁled
a motion to quash the subpoena that same day,
arguing that Gillin’s declaration obviated the need for

A-9
live testimony, which would be duplicative of those
facts in the sworn declaration. At the December 3,
2019

evidentiary

hearing,

Facebook’s attorneys

appeared in the district court. The district court
stated that it would set a brieﬁng schedule for a
response to the motion to quash and, in the event that
Bebris prevailed on the motion, would continue the
evidentiary hearing with Facebook’s testimony at a
later date. The government stated that it viewed the
declaration as suﬃcient for the court to rule on the
motion to suppress without additional live testimony.
The evidentiary hearing proceeded with testimony
from NCMEC Vice President John Shehan, who
discussed (1) PhotoDNA and NCMEC’s hash value
database; (2) CyberTipline Reports; (3) oversight and
funding of NCMEC by the United States government;
and (4) NCMEC’s partnership with Face- book. After
the testimony concluded, the district court heard

A-10
additional argument from Bebris, the government,
and Facebook on the motion to quash. An attorney
from Facebook stated that the company would be
willing

to

supply

a

supplemental

declaration

addressing concerns raised by Bebris’s counsel,
speciﬁcally relating to the level of cooperation and
training between NCMEC and Facebook and whether
some- one at Facebook had viewed the images before
sending a re- port to NCMEC. In his supplemental
brief, Bebris requested another evidentiary hearing
and listed more than 100 questions he wanted to ask
a

Facebook

witness

at

that

hearing.

In

its

supplemental response, Facebook argued that live
testimony was not needed, and it provided a
supplemental declaration from the same declarant,
Gillin.

A-11
Gillin’s declarations3 stated, in relevant part, that:
(1) Facebook has an independent business purpose
in keeping its platform safe and free from harmful
content and conduct, including content that sexually
exploits children. As [its] Community Standards explain, “We do not allow content that sexually exploits
or endangers children. When we become aware of apparent child exploitation, we report it to the National
Center for Missing and Exploited Children (NCMEC),
in compliance with applicable law.” Our community
Standards regarding Child Nudity and Sexual
Exploitation of Children are publicly available on our
website

here:

https://www.facebook.com/commu-

nitystandards/child_nudity_sexual_exploitation.

Gillin’s second declaration contained only minor changes from
the first, clarifying the responses related to the training
Facebook received from NCMEC and stating that a Facebook
employee viewed flagged images be- fore submitting them to
NCMEC.
3

A-12
(2) Facebook identiﬁes content and conduct that
might violate its Community Standards in various
ways. [The relevant CyberTipline Reports] were based
on images Facebook identiﬁed using a software called
PhotoDNA, which Facebook did not create but instead licensed directly from Microsoft, another private company. Facebook uses PhotoDNA software to
identify potential child exploitation content, as well as
to identify other types of violations of its Terms of Service or Community Standards. Information about how
PhotoDNA works is publicly available, for example, at
https://www.microsoft.com/en-us/photodna. Facebook
did not license the software from NCMEC or anyone
other than Microsoft directly.
(3) Facebook does not receive training from
NCMEC regarding the use or operation of PhotoDNA
or its processes for reporting to CyberTipline,
meaning Face- book does not receive training from

A-13
NCMEC on Facebook’s own internal processes,
including Facebook’s use of PhotoDNA or Facebook’s
process of determining the content of its CyberTipline
reports. NCMEC may train or educate service
providers, including Facebook, on the technical
specifications and operation of the CyberTipline.
(4) [Paraphrased:] Gillin reviewed the reports
created as- sociated with this case. The photos
instigating each re- port were viewed by a person at
Facebook and sent to NCMEC.
(5) Although initially identified by PhotoDNA, a
person viewed the images immediately before they
were sub- mitted to NCMEC. This is reflected in the
CyberTipline Reports where the reports document
“Did reporting ESP view the entire contents of
uploaded files?” and the report reflects an answer of
“Yes.” When Facebook responds to this question with

A-14
an affirmative “Yes,” it means that a person viewed
the im- age submitted in the CyberTipline report.
(6) Facebook has no record of receiving legal
process from the Government for the account holders
associated with the accounts reported in [the relevant
CyberTipLine reports]. Prior to receipt of this
subpoena, other than the initial submission of these
two CyberTipline Reports, Facebook has identiﬁed no
records of communication with NCMEC in this
matter.

Similarly,

other

than

its

counsel’s

communications with the Government about the
defense subpoena, Facebook has identiﬁed no records
of communications with the Government regarding
the images or content of the CyberTipline reports.
R. 53, Ex. A.
Following supplemental brieﬁng, the district court
issued an order denying Bebris’s motion to suppress
and, within that order, granting Facebook’s motion to

A-15
quash. The district court found that Bebris lacked a
reasonable expectation of privacy in his messages
because Facebook’s Community Standards and terms
of service warned users that Facebook reports child
pornography if it becomes aware that it is being sent.
Separately, the district court held that Facebook
searched Bebris’s messages as a private actor and,
thus, the search did not im- plicate the Fourth
Amendment. Finally, the district court found that
NCMEC and the Wisconsin law enforcement agencies
did not exceed the scope of Facebook’s private search.
Following that ruling, Bebris entered a guilty plea
to one count of distributing child pornography,
reserving his right to challenge the district court’s
denial of his motion to sup- press on appeal. He was
sentenced to 60 months in prison followed by six years
of supervised release.

A-16
II
As a general, initial matter, Bebris’s challenge to
Face- book’s search of his messages and his assertion
that this search violated the Fourth Amendment
draws from an argument that has become familiar to
federal district and circuit courts around the country.
Bebris’s core theory is that Face- book’s use of the
PhotoDNA technology, along with other facts he
presented or hoped to present (if they existed),
converted Facebook into a government agent for
Fourth Amendment purposes. Thus, Bebris contends
that the evidence re- covered and transferred as a
result of Facebook’s search should have been
suppressed because it was obtained with- out a
warrant. This theory is not novel and has been
invoked

in

various

circumstances

involving

PhotoDNA or similar technology. See United States v.

Miller, 982 F.3d 412 (6th Cir. 2020); United States v.

A-17

Ringland, 966 F.3d 731 (8th Cir. 2020); United States
v. Reddick, 900 F.3d 636 (5th Cir. 2018); United
States v. Ackerman, 831 F.3d 1292 (10th Cir. 2016);
United States v. Stevenson, 727 F.3d 826 (8th Cir.
2013); United States v. Cameron, 699 F.3d 621 (1st
Cir. 2012).
Bebris, however, has added a twist to this common
argument. He asserts that he has been deprived of the
opportunity to prove that Facebook acted as a
government agent because the district court quashed
his subpoena for live testimony from a Facebook
representative at the evidentiary hearing on Bebris’s
motion to suppress. The district court’s quashing of
the subpoena, he argues, constituted a violation of the
Confrontation Clause of the Sixth Amendment. In
other words, Bebris argues that the ultimate denial of
his motion to sup- press (in which he claimed Fourth
Amendment violations) was predicated on the district

A-18
court’s refusal to require testimony from a Facebook
representative (which, as he sees it, violated his Sixth
Amendment Confrontation Clause right). Bebris
additionally argues that even if the district court did
not err by quashing the Facebook subpoena, the
district court still erred by denying the motion to
suppress on the merits based on the evidence in the
record. Bebris also argues that the district court erred
by ﬁnding that he lacked a reasonable expectation of
privacy in his Facebook messages. We address each
argument in turn below.
A
1
Broadly, Bebris’s arguments build from certain
foundational assumptions, which we address at the
outset. First, recall that Facebook—which ﬂagged and
viewed the child pornography Bebris originally sent
on its platform—sent a CyberTip to NCMEC, not

A-19
directly to the Wisconsin authorities. Bebris hoped to
prove that Facebook acted as an agent of NCMEC
when Facebook searched and reviewed suspected
child pornography, which, through an agency chain
(law enforcement to NCMEC to Facebook), means
that Facebook would be deemed a government agent.
The government takes the position that NCMEC is
not a government entity or agent, but calls this
question immaterial. Because we hold below that the
district court did not err in its determination that
Face- book was a private actor in this case and the
search was not later expanded, we agree that this
question becomes immaterial. So, for purposes of this
appeal, we assume that NCMEC is in fact a
governmental entity or agent. See Ackerman, 831
F.3d at 1294–95 (discussing in depth whether
NCMEC qualiﬁes as a government entity or agent and
concluding that it does). Thus, we proceed under the

A-20
assumption that if Bebris could prove that Facebook
acted as an agent of NCMEC, that agency relationship
would serve as a basis for governmental action
implicating the Fourth Amendment.
Second,

Bebris

assumes

that

the

Sixth

Amendment’s Confrontation Clause is applicable
during an evidentiary hearing on a motion to
suppress. This assumption is not supported by the
case law. “The opinions of [the Supreme Court] show
that the right to confrontation is a trial right.”

Pennsylvania v. Ritchie, 480 U.S. 39, 52 (1987)
(plurality opinion) (emphasis in original). This court
and other circuit courts have endorsed the plain
meaning of this Ritchie observation. See, e.g., United

States v. Hamilton, 107 F.3d 499, 503 (7th Cir. 1997)
(“The

Supreme

Court

has

interpreted

the

[Confrontation Clause] to guarantee a defendant a
face-to-face meeting with witnesses appearing before

A-21
the trier of fact.”) (citation omitted); Ebert v. Gaetz,
610 F.3d 404, 414 (7th Cir. 2010) (“[B]ecause the court
considered the statement at a suppression hearing,
not Ebert’s trial[,] the Confrontation Clause was not
implicated.”) (citing United States v. Harris, 403 U.S.
573, 584 (1971), which noted that the Confrontation
Clause “seems inapposite to … proceedings under the
Fourth Amendment”); United States v. Thompson,
533 F.3d 964, 969 (8th Cir. 2008) (“[T]he right of
confrontation does not apply to the same extent at
pretrial suppression hearings as it does at trial. [T]he
interests at stake in a suppression hearing are of a
lesser magnitude than those in the criminal trial
itself.”) (internal quotations and citations omitted).
To his credit, Bebris acknowledges in his brieﬁng
that “the Supreme Court has not yet clearly and
decisively

addressed

whether

the

right

to

confrontation applies when a defendant has waged a

A-22
challenge” related to the suppression of allegedly
unconstitutionally obtained evidence. Appellant Br.
21. And Bebris makes substantial arguments for the
extension of that right to an evidentiary hearing on a
motion to suppress.4 But we do not view our role as
creating a new right where our own (and the most
relevant Supreme Court) precedent suggests that no
such right exists. With that in mind, we decline
Bebris’s invitation to review the district court’s
decision in quashing the Facebook subpoena under a
Confrontation

Clause

analysis—which

would

represent a novel holding that would have farreaching and potentially unforeseen consequences for
every suppression hearing. See United States v.

We agree with Bebris that the district court’s reliance on
Linder v. United States, 937 F.3d 1087 (7th Cir. 2019), appears
to be misplaced, as that case dealt with somewhat novel and
otherwise inapplicable circumstances. Bebris’s other textual
and precedential arguments, which rely on Supreme Court
cases preceding Ritchie, are foreclosed in this case by the later
developed Confrontation Clause doctrine.
4

A-23

Marzook, 435 F. Supp. 2d 708, 747–48 (N.D. Ill. 2006)
(St. Eve, J.) (persuasively concluding that the
Confrontation Clause does not apply to pre-trial
suppression hearings and noting that Federal Rule of
Evidence 104(a) provides that the rules of evidence do
not bind a court making a determination at a
suppression hearing, where hearsay and other
evidence that would be inadmissible at trial may be
relied on) (citing, inter alia, United States v. Raddatz,
447 U.S. 667, 679 (1980)).
The inapplicability of the Confrontation Clause to
a suppression hearing does not mean, however, that a
defendant seeking information to show that evidence
was illegally obtained is left unprotected. Rather,
district courts still must ad- here to the traditional
requirements that attach to their review of motions to
suppress, including, as relevant here, in their

A-24
discretionary determinations as to whether to issue or
quash Rule 17 subpoenas. See FED. R. CRIM. P. 17.
2
Turning, then, to the district court’s decision to
quash Bebris’s Rule 17(a) subpoena ad testiﬁcandum,
we review that decision for abuse of discretion. United

States v. Hamdan, 910 F.3d 351, 356 (7th Cir. 2018).5
“We will reverse the district court only ‘when no
reasonable person could take the view adopted by the
trial court.’” Id. (quoting United States v. Ozuna, 561
F.3d 728, 738 (7th Cir. 2009)). Generally, Rule 17(a)
subpoenas may issue where a defendant seeks
testimony that is relevant and material to the issue
being litigated. Stern v. U.S. Dist. Ct. for Dist. of

Although Rule 17(a), unlike Rule 17(c) (which governs
subpoenas duces tecum), does not explicitly address the quashal
or modification of a Rule 17(a) subpoena, courts “routinely have
entertained motions seeking such relief and decided them by
reference to comparable principles [to those governing Rule
17(c) subpoenas].” Stern v. U.S. Dist. Court for Dist. of Mass.,
214 F.3d 4, 17 (1st Cir. 2000).
5

A-25

Mass., 214 F.3d 4, 17 (1st Cir. 2000). Where the
sought testimony is cumulative or immaterial, a court
does not abuse its discretion by quashing a Rule 17(a)
subpoena. See United States v. Beasley, 479 F.2d
1124, 1128 (5th Cir. 1973). Moreover, Rule 17 may not
be used to conduct a “ﬁshing expedition.” United

States v. Nixon, 418 U.S. 683, 699– 700 (1974)
(analyzing Rule 17(c)).
As to the motion to suppress we review the district
court’s legal conclusions de novo and the district
court’s factual ﬁndings for clear error. United States

v. Caira, 833 F.3d 803, 806 (7th Cir. 2016). Mixed
questions of law and fact are reviewed de novo. United

States v. Fiasche, 520 F.3d 694, 697 (7th Cir. 2008).
“We accord special deference to the district court’s
credibility determinations because the resolution of a
motion to suppress is almost always a fact-speciﬁc
inquiry, and it is the district court which heard the

A-26
testimony and observed the witnesses at the
suppression hearing.” United States v. Burnside, 588
F.3d 511, 517 (7th Cir. 2009). To determine whether
the district court abused its discretion in quashing the
subpoena in this case, we must analyze the decision in
the context of the underlying substantive legal
argument that Bebris advanced in his motion to
suppress.
The ﬁrst clause of the Fourth Amendment provides
that “[t]he right of the people to be secure in their
persons,

houses,

papers

and

eﬀects,

against

unreasonable searches and seizures, shall not be
violated[.]” U.S. CONST. amend. IV. This protection
applies against governmental action and is “wholly
inapplicable ‘to a search or seizure, even an
unreasonable one, eﬀected by a private individual not
acting as an agent of the Government or with the
participation or knowledge of any governmental

A-27
oﬃcial.’” United States v. Jacobsen, 466 U.S. 109,
113–14 (1984) (quoting Walter v. United States, 447
U.S. 649, 662 (1980) (Blackmun, J., dissenting)).
Where a private individual has discovered or been
informed of a defendant’s private information because
the defendant has revealed it, that defendant’s
expectation of privacy in that information has been
frustrated. Id. at 116–17. The controlling principle,
distilled down, is that “the Fourth Amendment does
not prohibit the obtaining of information revealed to a
third party and conveyed by him to Government
authorities, even if the information is revealed on the
assumption that it will be used only for a limited
purpose and the conﬁdence placed in a third party will
not be betrayed.” Id. at 117 (internal quotations and
citation omitted). Instead, “[t]he Fourth Amendment
is implicated only if the authorities use information
with respect to which the expectation of privacy has

A-28
not already been frustrated.” Id. In other words,
authorities typically may repeat a private search
already conducted by a third party but may not
expand on it—a legal principle that has been
described as the private search doctrine. See

Ringland, 966 F.3d at 736.
The government may not, however, simply enlist
‘private’ individuals to do its bidding in an attempt to
avoid

its

Fourth

Amendment

obligations.

An

ostensibly private organization or individual may
become a state actor for Fourth Amendment purposes
in situations where the actor’s conduct is “fairly
attributable” to the government. Brentwood Acad. v.

Tenn. Secondary Sch. Athletic Ass'n, 531 U.S. 288,
295 (2001); see United States v. Koenig, 856 F.2d 843,
849–50 (7th Cir. 1988). The defendant bears the
burden of proving such a relationship. United States

v. Aldridge, 642 F.3d 537, 541 (7th Cir. 2011). To meet

A-29
this burden, “a defendant must prove some exercise of
governmental power over the private entity, such that
the private entity may be said to have acted on behalf
of the government rather than for its own, private
purposes.”

Koenig,

856

F.2d

at

849.

This

determination must necessarily be made on a case-bycase basis, and no rigid formula has been articulated
in this circuit, though two critical factors include (1)
whether the government knew of and acquiesced in
the intrusive con- duct and (2) whether the private
party’s conduct was done with the purpose of assisting
law enforcement or to further his own ends. Id. at 847
(citing United States v. Feﬀer, 831 F.2d 734, 739–40
(7th Cir. 1987)).
With this framework in mind, we return to the
district court’s decision to quash the Facebook
subpoena, which Bebris claims deprived him of the
ability to prove that Face- book acted as a government

A-30
agent. In analyzing this issue, the district court
determined that the record before it was sufficiently
developed to conclude that Facebook was not a
government actor. The district court further found
that additional testimony by a Facebook executive
was unnecessary. We agree.
First, as alluded to earlier, the district court was
within its discretion to rely on the declarations
submitted by Gillin because when determining
preliminary questions about the admissibility of
evidence, the district court is “not bound by evidence
rules, except those on privilege.” FED. R. EVID.
104(a); United States v. Bolin, 514 F.2d 554, 557 (7th
Cir. 1975) (“[I]t is clear that hearsay evidence is
admissible in a hearing on a motion to suppress.”).
Second, the statements in the Gillin declarations,
which were corroborated by NCMEC Vice President
John Shehan’s testimony, addressed the principal

A-31
factual considerations relevant to the agency inquiry.
Specifically,

Gillin’s

declaration

revealed

that

Facebook had not been directed by the government (or
NCMEC) to take any specific action with respect to
Bebris, that Facebook had not been in contact with the
government or NCMEC with respect to Bebris prior to
the discovery of child pornography in Bebris’s
messages, and that Facebook had its own independent
business purpose in keeping its platform free of child
pornography. On these first two points, Bebris argues
that the district court erred by relying on the
declaration “without any tested factual support”
relating to whether the government compelled
Facebook to perform this monitoring on its platform.
In fact, however, NCMEC Vice President Shehan
testified that Facebook’s relationship with NCMEC
was “completely voluntary.” The district court’s
factual findings on this issue were not clearly

A-32
erroneous, and additional testimony as to whether
Facebook was compelled (in the face of the undisputed
evidence properly before the court to the contrary) to
monitor its platforms would have been cumulative.
As to Facebook’s business purpose for monitoring
its plat- form, Bebris argues that the district court
erred by simply crediting Facebook’s conclusory
statement that it had an in- dependent business
purpose

for monitoring

pornography.

We

its platform for

disagree.

True,

child

Facebook’s

declaration stated that it had “an independent
business purpose” for monitoring its platform for child
pornography in a conclusory fashion. But the district
court was entitled to determine, given the record
before it, that this statement was sufficient. We note
that the Microsoft stipulation, for example, states that
“the direct and indirect costs resulting from the
presence of such images can be significant. For

A-33
example, the presence of such images can increase the
volume of consumer complaints received by Microsoft
and,

potentially,

Microsoft’s

cause

image

and

substantial
reputation

harm

to

in

the

marketplace.”
R. 43 at ¶ 4. Thus, the district court’s finding as to
Facebook’s motivation, which was consistent with the
common sense statement in the record provided by
Microsoft, was proper. Several of our sister circuits
have recognized that a company which automatically
scans electronic communications on its platform does
“not become a government agent merely because it
had

a

mutual

interest

in

eradicating

child

pornography from its platform.” Ringland, 966 F.3d at
736. We agree— drawing from another well-stated
opinion—that this sort of activity is analogous to
shopkeepers that have sought to rid their physical
spaces of criminal activity to protect their businesses.

A-34

Miller, 982 F.3d at 425; see also Stevenson, 727 F.3d
at 830 (“A reporting requirement, standing alone,
does not transform an Internet service provider into a
government agent whenever it chooses to scan files
sent on its network for child pornography.”); Cameron,
699 F.3d at 638 (“[I]t is certainly the case that
combating child pornography

is a government

interest. However, this does not mean that Yahoo!
cannot voluntarily choose to have the same interest.”).
In the end, the district court appropriately relied
on the Facebook declaration which, in conjunction
with the NCMEC testimony, support its conclusion
that Facebook was not acting as a government agent
when it reviewed messages on its servers for child
pornography and then reported that contraband to
NCMEC. Because the sought-after live testimony as
to the nature of the cooperation between Facebook
and NCMEC

would

have

been

cumulative

of

A-35
Facebook’s declaration (which itself was corroborated
by NCMEC testimony), the district court did not
abuse its discretion in quashing the Facebook
subpoena.
Turning to the merits of the motion to suppress,
based

on

the

evidence

relied

upon,

which

encompassed an appropriate universe of material, the
district court’s factual findings, including that
Facebook did not act as government agent in this case,
were proper. Bebris’s additional arguments to the
contrary are unavailing, including for the reasons
discussed above. As a result, the district court
properly denied Bebris’s motion to suppress.

B
The

parties

have

raised

several

additional

arguments on appeal. Because we hold that the
district court properly quashed the subpoena and

A-36
denied the motion to suppress on the grounds
discussed above, we need not reach whether Bebris
had a reasonable expectation of privacy in his
Facebook messages and whether the government
actors in this case would benefit from the good-faith
exception.
III
In sum, the district court did not err by quashing
the subpoena to Facebook, and the district court did
not err by denying the motion to suppress based on its
finding that the private search doctrine applied.
AFFIRMED

A-37
United States District Court
Eastern District of Wisconsin
UNITED STATES of America, Plaintiff–Appellee,
v.
Alexander BEBRIS, Defendant–Appellant.
Case No. 19-CR-02.
Ordered March 9, 2020.
DECISION AND ORDER DENYING MOTION TO
SUPPRESS
On January 15, 2019, a grand jury sitting in
Milwaukee

returned

an

Indictment

charging

Defendant Alexander P. Bebris with Distribution of
Child Pornography in violation of 18 U.S.C. §
2252A(a)(2)(A) and
Pornography

in

Possession
violation

of

of
18

Child
U.S.C. §

2252A(a)(5)(B). The charges stem from Facebook’s
discovery

that

Bebris

uploaded

several

child

pornography images via Facebook Messenger in
September 2018. Facebook relayed that information
to the National Center for Missing and Exploited

A-38
Children (NCMEC), which then sent it to local law
enforcement in Wisconsin. In December 2018, the
Winnebago County Sheriff’s Office (WCSO) obtained
and executed a search warrant at Bebris’ residence
based on the information provided by NCMEC, where
officers found additional child pornography files.
Currently before the court is Bebris’ motion to
suppress the evidence and statements obtained
following the search of his residence. Bebris claims
that his Fourth Amendment rights were violated
when private entities and law enforcement reviewed
the illegal images he allegedly uploaded to Facebook.
More specifically, Bebris contends that Facebook and
NCMEC were acting as agents of the Government
when

they

identified

and

reviewed

the

child

pornography files Bebris allegedly uploaded to
Facebook and forwarded the information concerning
the uploads to WCSO. An evidentiary hearing was

A-39
held on Bebris’ motion on December 3, 2019, and the
parties submitted both pre-hearing and post-hearing
briefs. In addition, the court heard argument and
reviewed briefing on Facebook’s motion to quash the
subpoena that Bebris’ attorneys issued to it. For the
reasons that follow, Bebris’ motion to suppress will be
denied and Facebook’s motion to quash will be
granted.
FINDINGS AND ANALYSIS
A.

Expectation of Privacy

The evidentiary hearing and most of the
argument and briefing centered on the issue of
whether Facebook and NCMEC act as government
agents in the investigation of child pornography. The
more immediate question, however, is whether Bebris
had a reasonable expectation of privacy in the
Facebook

messages

he

sent

pornography. I conclude he did not.

containing

child

A-40
“[T]he application of the Fourth Amendment
depends on whether the person invoking its protection
can claim a justifiable, a reasonable, or a legitimate
expectation of privacy that has been invaded by
government action.” Smith v. Maryland, 442 U.S. 735,
740 (1979) (internal quotations omitted). “A defendant
seeking to suppress the fruits of a search bears the
burden of demonstrating both that he held an actual
subjective expectation of privacy and that the
expectation ‘is one that society is prepared to
recognize as reasonable.’” United States v. Villegas,
495 F.3d 761, 767 (7th Cir. 2007) (quoting United

States v. Yang, 478 F.3d 832, 835 (7th Cir. 2007)).
While it appears clear, assuming the allegations in
the Indictment are true, that Bebris had a subjective
expectation of privacy in his Facebook email
containing child pornography, i.e., he didn’t think he’d
be caught, his expectation was not objectively

A-41
reasonable

in

light

of

Facebook’s

published

Community Standards and the terms of service he
agreed to as a condition of opening a Facebook
account.
Facebook is a well-known media company and
electronic service provider (“ESP”). Facebook users
create user names and can communicate with other
Facebook

users

through,

among

other

things,

Facebook Messenger. Facebook has a corporate policy
that prohibits content that sexually exploits or
endangers children. Community Standards, Section 7:
Child Nudity and Sexual Exploitation of Children,
FACEBOOK,
https://www.facebook.com/communitystandards/
safety (last visited Mar. 5, 2020). The policy expressly
warns users: “When we become aware of apparent
child exploitation, we report it to the National Center
for Missing and Exploited Children (NCMEC), in

A-42
compliance with applicable law.” Id., Decl. of Michael
Francis Xavier Gillin, II, ¶ 3, Dkt. No. 41 at 5.
Facebook also discloses to its users that it collects data
about “the content, communications and other
information you provide when you use our Products,
including when you sign up for an account, create or
share content, and message or communicate with
others.” Data Policy,

FACEBOOK,

https://www.facebook.com/about/privacy/update#lega
l-requests-prevent-harm (last visited Mar. 5, 2020).
Users are told this information is used, inter alia, to
“promote safety and security on and off of Facebook
Products.” Id. Among the third parties with whom
users are told Facebook shares such information are
law enforcement agencies. Facebook explains that “we
access, preserve and share your information with
regulators, law enforcement or others . . . [w]hen we

A-43
have a good-faith belief it is necessary to: detect,
prevent or address . . . harmful or illegal activity.” Id.
In the face of these disclosures, any expectation
of

privacy

Bebris

had

with

respect

to

child

pornography uploaded via his Facebook Messenger
account would be objectively unreasonable. See

United States v. Wilson, No. 3:15-cr-02838-GPC, 2017
WL 2733879, at *7 (S.D. Cal. June 26, 2017) (“This
express monitoring policy regarding illegal content,
which Defendant agreed to, rendered Defendant’s
subjective expectation of privacy in the four uploaded
child

pornography

attachments

objectively

unreasonable.”); United States v. Ackerman, 296 F.
Supp. 3d 1267, 1273 (D. Kan. 2017) (“In this case,
AOL's TOS [terms of service] similarly limits
Defendant's objectively reasonable expectation of
privacy. As noted above, the TOS informed Defendant
that he must comply with applicable laws and that he

A-44
could not participate in illegal activities. AOL's TOS
also informed Defendant that if he participated in
illegal activities or did not comply with AOL's TOS, it
could take technical, legal, or other actions without
notice to him. Thus, the Court concludes that
Defendant cannot establish a reasonably objective
expectation of privacy in this particular email and its
four attachments (containing child pornography) after
AOL terminated his account for violating its TOS.”);

United States v. Stratton, 229 F. Supp. 3d 1230, 1242
(D. Kan. 2017) (“[B]ecause the Terms of Service
Agreement

reduced

defendant's

reasonable

expectation of privacy in the information stored on his
PS3 device, the court finds that the Fourth
Amendment does not apply to Sony's search of
defendant's images.”).
This is not to say that, as a general matter, an
individual’s expectation of privacy in his or her own

A-45
email account is not reasonable. See United States v.

Warshak, 631 F.3d 266, 288 (6th Cir. 2010) (“[W]e
hold that a subscriber enjoys a reasonable expectation
of privacy in the contents of emails that are stored
with, or sent or received through, a commercial ISP.”)
(internal quotations omitted).

In Warshak, the

government used the Stored Communications Act
(SCA), 18 U.S.C.§§ 2701 et seq., to compel an internet
service provider (ISP) to disclose 27,000 of the
defendant’s private emails in the course of its
investigation of a scheme to defraud predicated on the
sale of an herbal supplement purported to enhance
male sexual performance. Although some of the
emails were incriminating, there was no allegation
that they contained contraband. Moreover, the
disclosure of the emails in Warshak was compelled by
the government; it was not initiated by the ISP for its
own purposes and in compliance with its terms of use.

A-46
Based on these facts, the court concluded that the
government’s conduct violated the defendant’s Fourth
Amendment rights. But neither Warshak, nor any of
the other cases cited by Bebris, have held that one’s
expectation of privacy in child pornography sent via
email is reasonable in light of the express disclosure
by the ESP that such content is not allowed and will
be reported to law enforcement. Such an expectation
is not “one that society is prepared to recognize as
reasonable.” Katz v. United States, 389 U.S. 347, 361
(1967).
B.
Even

Facebook as Government Agent
if

his

expectation of

privacy was

reasonable, Bebris’ motion would nevertheless fail
because Facebook is not a government agent, and thus
its actions in detecting the child pornography and
sending the CyberTipline Reports to NCMEC were
private actions not attributable to the government,

A-47
regardless of whether NCMEC is a government agent
or not. The Fourth Amendment’s purpose is to protect
citizens against unreasonable searches and seizures
by the government. It does not apply to searches or
seizures performed by private individuals or entities
unless they are acting as an instrument or agent of
the government. In order to determine whether an
individual was acting as a private party or as an
“instrument or agent” of the government, courts look
to “whether the government knew of and acquiesced
in the intrusive conduct and whether the private
party’s purpose in conducting the search was to assist
law enforcement agents or to further its own ends.”

United States v. Ginglen, 467 F.3d 1071, 1074 (7th
Cir. 2006) (internal quotations omitted). “Other useful
criteria are whether the private actor acted at the
request

of

the

government

and

whether

the

government offered the private actor a reward.” Id.

A-48
Here, the government neither knew of nor
acquiesced in Facebook’s monitoring of Bebris’ emails.
No law enforcement agency was investigating Bebris
until NCMEC alerted WCSO that child pornography
had been uploaded using his account. Of course, law
enforcement is aware that Facebook and other ESPs
monitor the content of messages sent using their
products, just like it knows private mail carriers
monitor packages for drugs, but this does not make
ESPs or private carriers agents of the government.
See United States v. Koenig, 856 F.2d 843, 850 (7th
Cir. 1988) (holding that employee of Federal Express
was not acting as a de facto government agent when
he opened suspicious package and discovered cocaine,
notwithstanding carrier's historical maintenance of
good relations with law enforcement officials and
employee's past cooperation with such officials, where
employee

was

following

carrier’s

own

policy

A-49
authorizing

search

of

suspicious

packages

for

protection of itself and employees).
Facebook, like other ESPs have strong moral
and business reasons of their own to prevent their
products

from

being

used to

traffic

in

child

pornography. No sane person, let alone a business
that values its image and reputation, wants to be
publicly associated with the sexual exploitation of
children. As Facebook’s Project Manager for Safety on
its Community Operations team states in his
declaration, “Facebook has an independent business
purpose in keeping its platform safe and free from
harmful content and conduct, including content and
conduct that sexually exploits children.” Gillin Decl. ¶
3.
Other courts have recognized that other ESPs,
like Facebook, have their own interest in preventing
the use of their products to traffic in child

A-50
pornography and that laws mandating the reporting
of child pornography to law enforcement do not
transform them into government agents. See, e.g.,

United States v. Richardson, 607 F.3d 357, 367 (4th
Cir. 2010) (“We conclude that the statutory provision
pursuant to which AOL reported Richardson's
activities did not effectively convert AOL into an
agent of the Government for Fourth Amendment
purposes.”); United States v. Cameron, 699 F.3d 621,
638 (1st Cir. 2012) (“[I]t is certainly the case that
combating child pornography

is a government

interest. However, this does not mean that Yahoo!
cannot voluntarily choose to have the same interest.”);

United States v. Stevenson, 727 F.3d 826, 830 (8th
Cir. 2013) (“A reporting requirement, standing alone,
does not transform an Internet service provider into a
government agent whenever it chooses to scan files
sent on its network for child pornography.”). As one

A-51
court recently noted, “district and circuit courts
around the country . . . have universally rejected the
arguments like Defendant’s [that ESPs were acting as
agents

or

instruments

of

the

government

in

monitoring the email content of users and reporting
suspected child pornography to NCMEC].” United

States v. Wolfenbarger, Case No. 16-CR-00519-LHK1, 2019 WL 6716357, at *12 (N.D. Cal. Dec. 10, 2019).
Bebris nevertheless argues that Facebook’s
cooperation with NCMEC, which is itself, in his view,
an agent of the government, makes Facebook an agent
of the government. He challenges the declarations
filed by Facebook in support of its motion to quash the
subpoena issued to compel its attendance at the
evidentiary hearing held by the court and argues that
he is entitled to live testimony, either in court or by
video, to establish the close relationship between
them.

A-52
To the extent Bebris’ objection is to the
admissibility of the declarations Facebook submitted,
the objection is overruled. Bebris cites his Sixth
Amendment

right

to

compulsory

process,

but

compulsory process is a trial right. It does not apply
to pretrial proceedings. Linder v. United States, 937
F.3d 1087, 1090 (7th Cir. 2019) (“Compulsory process
is a trial right; the Constitution does not entitle a
criminal defendant to interview potential witnesses or
take their depositions before trial.”). Moreover, the
Federal Rules of Evidence do not apply in full force to
suppression hearings. Fed. R. Evid. 104(a), 1101(d)(1);
see United States v. Watson, 87 F.3d 927, 30 (7th Cir.
1996)

(holding

that,

“aside

from

privilege,

exclusionary rules should not apply in a proceeding in
which the court itself is considering the admissibility
of evidence,” including during suppression hearings)
(citing United States v. Matlock, 415 U.S. 164, 173

A-53
(1974)); see also United States v. Ozuna, 561 F.3d 728,
736–37 (7th Cir. 2009) (“[T]he Rules of Evidence do
not apply at pre-trial admissibility hearings. Rule
104(a) makes this explicit.” (citations omitted)). As a
result, Gillin’s declarations are not excluded from
consideration as inadmissible hearsay. The Court
may receive the evidence and give it whatever weight
it deserves. Matlock, 415 U.S. at 175.
To

the

extent

Bebris’

objection

is

that

Facebook’s declarations are not sufficient, the court
concludes otherwise. Bebris’ argument that NCMEC
exceeded the scope of the private search conducted by
Facebook

is

sufficiently

addressed

by

Gillin’s

declaration describing the CyberTipline reports.
Although the child pornography was originally
identified by PhotoDNA, the computer program
developed by Microsoft that allows ESPs, like
Facebook, to more readily detect child pornography,

A-54
the images were viewed by a person before they were
submitted to NCMEC, as reflected in the reports
themselves. Supp. Decl. of Michael Francis Xavier
Gillin, II, ¶ 7, Dkt. No. 53 at 5. This evidence refutes
Bebris’ argument that NCMEC expanded Facebook’s
search.
But even if no Facebook employee had viewed
the files, the result would be the same. As the Fifth
Circuit noted in United States v. Reddick, Microsoft’s
PhotoDNA relies on hash-values to identify child
pornography, and “hash value comparison allows law
enforcement to identify child pornography with
almost absolute certainty, since hash values are
specific to the makeup of a particular image’s data.”
900 F.3d 636, 639 (5th Cir. 2018) (internal quotations
omitted). Thus, opening the files identified as child
pornography by comparison of hash values would not
be a significant expansion of a search previously

A-55
conducted by a private party such that it would
constitute a separate search. Id.
Bebris’ further argument that direct testimony
by a Facebook executive is needed to determine the
level of cooperation between Facebook and NCMEC is
likewise unconvincing. Even if Facebook did receive
training from NCMEC on the use of PhotoDNA and
the process of filing CyberTipline reports so that it
could more effectively monitor its products for child
pornography and assist law enforcement, this would
not transform Facebook into a government agent or
instrumentality. See Koenig, 856 F.2d at 849 (“And
the fact that the DEA may have aided Federal
Express in the development of a drug shipper profile
does not establish that Federal Express would use the
profile at the government's behest, rather than for its
own, private purposes. Presumably Federal Express
would desire the best profile it could obtain, the better

A-56
to stem the tide of drugs shipped through its facilities.
Use of an effective drug shipper profile, whatever its
source, is consistent with a private business interest
in protecting employees from contact with drug
shipments.”).
CONCLUSION
For these reasons, I conclude that Facebook’s
motion to quash Bebris’ subpoena [Dkt. No. 40] should
be granted. I further conclude from the evidence
before me that Facebook was not acting as an agent or
instrumentality of the government when it sent the
CyberTipline reports to NCMEC identifying child
pornography

uploaded

by

Bebris’

account

via

Facebook Messenger. And because Facebook acted
independently, the court need not decide whether
NCMEC is an agent of the government. Both because
Bebris had no reasonable expectation of privacy in the
child pornography depictions unloaded on his account

A-57
and because Facebook was not acting as an agent of
the government, his motion to suppress [Dkt. No. 28]
is denied. The Clerk is directed to place this matter on
the court’s calendar for a telephone conference with
counsel to discuss further proceedings and, if
necessary, schedule the matter for final pretrial and
trial.
SO ORDERED at Green Bay, Wisconsin this
9th day of March, 2020.
s/ William C. Griesbach
William C. Griesbach, District Judge
United States District Court

